                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2005                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Usefulness of Decentralized Correspondence in Focusing Employer-Assistance
        Activities (A-03-05-25007)


        The attached final report presents the results of our audit. Our objective was to
        determine whether employee addresses within the Social Security Administration’s
        Decentralized Correspondence file can provide useful information to strengthen the
        Agency’s employer-assistance activities.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   USEFULNESS OF DECENTRALIZED
   CORRESPONDENCE IN FOCUSING
  EMPLOYER-ASSISTANCE ACTIVITIES

  September 2005   A-03-05-25007




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE
Our objective was to determine whether employee addresses within the Social Security
Administration’s (SSA) Decentralized Correspondence (DECOR) file can provide useful
information to strengthen the Agency’s employer-assistance activities.

BACKGROUND
The purpose of the DECOR process is to contact employees and employers to resolve
Social Security number (SSN) and/or name discrepancies on reported earnings. Such
earnings are posted to the Agency’s Earnings Suspense File (ESF) until the
discrepancies can be resolved. The DECOR letter provides the wage earner with
information about the reported name/SSN and wage amount, and requests that the
reported information be reviewed, verified or corrected where possible, and returned.
While SSA sends most of the DECOR letters to employees, SSA also sends a letter to
the employer when an employee's address is unavailable. SSA uses the replies to
resolve the earnings discrepancies. For Tax Year (TY) 2002, SSA mailed
approximately 9.5 million DECOR letters, relating to approximately $60.4 billion in
wages, to employees and employers. Approximately 7.6 million of these letters were
sent directly to employees.

RESULTS OF REVIEW

Our review of the TY 2002 DECOR employee file indicates that employees living in
10 States represent 72 percent of the items in the file, even though these States
represent about 48 percent of the national workforce. We also found inconsistencies in
the volume of suspended wage items for particular States when compared to those
States’ share of the national workforce. For example, while the State of California has
11 percent of the Nation’s workforce, it represents about 30 percent of the suspended
items in the file.

Our audit also indicates that SSA’s strategy for assisting employers with wage reporting
problems may not sufficiently account for the diffusion of reporting problems throughout
the country. The Agency aligns its Employer Service Liaison Officer (ESLO) activities
on a regional basis, and identifies the employers located in each region by using the
payroll address of each employer. However, an employer operating in multiple States
may have its most significant problems in another part of the country. For example, we
identified an employer with a payroll address in Texas being assisted by the Dallas-
based ESLO, and yet the majority of the employees with suspended wage items resided
in California under the jurisdiction of a different ESLO.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)            i
Finally, we found problematic national trends, including valid SSNs being misused
hundreds of times in multiple States and the same employee address being used by
thousands of individuals. In 11 cases, a valid SSN was used more than 400 times by
various individuals during TY 2002. For instance, we found 1 case where a valid SSN
belonging to a child was used to report 742 wage items by individuals residing in
42 different States. These trends should be of interest to SSA in its efforts to reduce the
size of the ESF as well as protect the integrity of the SSN.

CONCLUSION AND RECOMMENDATIONS
The DECOR employee file provides a useful profile of the employers submitting wage
reports with name/SSN mismatches. By using the address information, the Agency’s
ESLOs can learn more about the specific problems of employers within their jurisdiction.
Furthermore, by knowing specifically where DECOR letters are mailed, the Agency can
better target its employer outreach efforts. Finally, potential SSN misuse and other
trends can be proactively monitored by the Agency as it attempts to protect the integrity
of the SSN.

To improve the focus of the Agency’s employer-assistance activities and protect the
integrity of the SSN and associated earnings postings, we recommend SSA:

   •   Consider using addresses in the DECOR employee file to enhance coordination
       among ESLOs when the employer wage reporting problems relate to multiple
       regions around the country.

   •   Consider using addresses in the DECOR employee file to identify relevant trends
       among employees with suspended wages and focus ESLO efforts.

   •   Review and correct the earnings record of the child noted in this report, as well
       as the earnings records related to the remaining 10 valid SSNs misused more
       than 400 times.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix G.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)             ii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Suspended Wage Items by Employee Address ......................................................3

Employer Service Liaison Officer’s Coverage .........................................................5

Other Trends Among the Suspended Wage Items..................................................7

    •    Frequently Misused Social Security Numbers ..............................................7

    •    Frequent Addresses .....................................................................................8

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Decentralized Correspondence Flowchart

APPENDIX C – Scope and Methodology

APPENDIX D – Ranking of States by Suspended Wage Items and State Workforce

APPENDIX E – Prior OIG Report Ranking of States by Total Suspended Wage Items

APPENDIX F – Additional Analysis on the Decentralized Correspondence Employer
              File

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                                                                              Introduction
OBJECTIVE
Our objective was to determine whether employee addresses within the Social Security
Administration’s (SSA) Decentralized Correspondence (DECOR) file can provide useful
information to strengthen the Agency’s employer-assistance activities.

BACKGROUND
Title II of the Social Security Act requires that SSA maintain the reported earnings
records of individuals.1 SSA uses these reported earnings to determine whether an
individual is entitled to receive retirement, survivors, disability and health insurance
benefits and to calculate benefits. SSA validates the names and Social Security
numbers (SSN) on the Wage and Tax Statement (Form W-2) against information in its
records. Earnings containing names and/or SSNs that do not match SSA’s records
cannot be posted to an individual’s earnings record in SSA's Master Earnings File
(MEF).2 Instead, these wages are placed in SSA’s Earnings Suspense File (ESF)—a
repository for unmatched wages. As of October 2004, the ESF had accumulated about
$463 billion in wages and 246 million wage items for Tax Years (TY) 1937 through
2002 that could not be posted to individuals’ earnings records. Accumulation
over TYs 1993 through 2002 accounts for $322 billion of the $463 billion in suspended
wages, or 70 percent.3

The purpose of the DECOR process is to contact employees and employers to resolve
SSN and/or name discrepancies on wage items stored in the ESF. The letter provides
the wage earner with information about the reported name/SSN and wage amount, and
requests that the reported information be reviewed, verified or corrected where possible,
and returned. While SSA sends most of the DECOR letters to employees,4 SSA sends
a letter to the employer when an employee's address is incomplete or incorrect.5 SSA




1
    The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A).
2
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record.
3
 These numbers relate to wages reported by employers and not self-employment income. SSA
maintains a separate ESF file for suspended self-employment income.
4
    SSA uses employee addresses reported on the W-2.
5
 SSA uses the employer address related to the Employer Identification Number (EIN) reported on the
W-2. The EIN is a 9-digit number assigned by the Internal Revenue Service (IRS) to sole proprietors,
corporations, partnerships, estates, trusts, and other entities for tax filing and reporting purposes. The
employer address related to the EIN is provided by the IRS.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                               1
uses the responses to resolve the earnings discrepancies. For TY 2002,6 SSA mailed
approximately 9.5 million DECOR letters, relating to approximately $60.4 billion in
wages, to employees and employers.7 See appendices B and F for more background
on the DECOR letters. Approximately 7.6 million DECOR letters were sent to
employees and another 1.9 million letters were sent to employers (see Table 1).
Furthermore, our analysis of the entire TY 2002 DECOR file showed there were about
884,000 specific employers in this file.

                     Table 1: Breakout of the Tax Year 2002 DECOR File
                                                                                       Percent of Items
       File Contents               Wage Items                     Wages                    Per File
    Employee File                         7.6 million               $49.8 billion                        80
    Employer File                         1.9 million               $10.6 billion                        20
    Total                                9.5 million               $60.4 billion                        100

We analyzed the 9.5 million wage items contained in the TY 2002 DECOR file and
determined that approximately 9 million (94 percent) of these wage items were related
to TY 2002, while the remainder related to prior TYs. For example, approximately
264,000 wage items related to TY 2001 (see Table 2).

                   Table 2: Reported Tax Years in the Entire DECOR File
              Tax Year               Number of Wage Items                    Volume of Wages
               2002                           8,992,179                         $57.6 billion
               2001                             264,477                          $1.4 billion
               2000                             130,689                            $.8 billion
             1978-1999                          142,266                            $.6 billion
               Blank                                278                         $.004 billion
               Total                          9,529,889                        $60.4 billion
    Note: Blank indicates that there was no tax year associated with these wage items.




6
  Although the letters were mailed during Calendar Year (CY) 2003, the majority of these wage items
related to TY 2002. As a result, we will refer to this file as a “TY 2002” file in this report. We reviewed the
TY 2002 DECOR mailer file since that was the most recent file available at the time of our review.
7
 Our report does not discuss self-employment income nor the letters sent to individuals with suspended
self-employment income. During CY 2003, SSA sent approximately 131,000 letters to individuals with
suspended self-employment income.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                                2
                                                         Results of Review
Our review of the TY 2002 DECOR employee file indicates that employees living in
10 States represent 72 percent of the items in the file, even though these States
represent about 48 percent of the national workforce. We also found inconsistencies in
the volume of suspended wage items for particular States when compared to those
States’ share of the national workforce. For example, while the State of California has
11 percent of the Nation’s workforce, it represents about 30 percent of the suspended
items in the file. Our audit also indicates that SSA’s strategy for assisting employers
with wage reporting problems may not sufficiently account for the diffusion of reporting
problems throughout the country. The Agency aligns its Employer Service Liaison
Officer (ESLO) activities on a regional basis using the payroll address of an employer.
However, an employer operating in multiple States may have its most significant
problems in another part of the country. For example, we identified an employer with a
payroll address in Texas being assisted by the Dallas-based ESLO, and yet the majority
of the employees with suspended wage items resided in California under the jurisdiction
of a different ESLO. Finally, we found problematic national trends, including valid SSNs
being misused hundreds of times in multiple States and the same employee address
being used by thousands of individuals. In 11 cases, a valid SSN was used more than
400 times by various individuals during TY 2002. For instance, we found 1 case where
a valid SSN belonging to a child was used to report 742 wage items by individuals
residing in 42 different States. These trends should be of interest to SSA in its efforts to
reduce the size of the ESF as well as protect the integrity of the SSN.

SUSPENDED WAGE ITEMS BY EMPLOYEE ADDRESS

Our analysis identified the States with employees contributing the highest number of
items to the DECOR employee file.8 The top 10 States9 accounted for 72 percent of the
TY 2002 DECOR letters sent to employees even though they represent about
48 percent of the national workforce as shown in Table 3 (see Appendix D for a ranking
of all 50 States and the District of Columbia). When we compared these 10 States to
the top 10 States in terms of total workforce, we found inconsistencies in the volume of
suspended wage items for particular States when compared to those States’ share of
the national workforce. For example, while the State of California has 11 percent of the
Nation’s workforce, it represents about 30 percent of the suspended items in the file.
However, in the case of New York, the State had about half the expected proportion of


8
  This analysis was based on DECOR letters sent to employees in the 50 States plus the District of
Columbia; or about 80 percent of all suspended wage items. We reviewed the DECOR employee file
since it contained the employees’ addresses. As we noted earlier, SSA will send a letter to an employer
when it lacks a valid address for the employee. Since items in the DECOR employee file represent ESF
wage items, our findings should directly correlate with the contents of the TY 2002 ESF. See Appendix F
for more on the DECOR letters sent to employers.
9
 In our analysis of the 20 percent of DECOR notices sent to employer addresses we found that the same
10 States were predominant.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                        3
suspended items when compared to its percent of the national workforce, and Georgia
had the same suspended item and workforce percentages.

                   Table 3: Comparison of the Top Ten States Ranking
                   of Suspended Wages Items and National Workforce
                   (Based on a Review of the Tax Year 2002 DECOR Employee File)
                           Ranking in           Percent of       Ranking in Terms          Percent of the
                         Terms of Wage           DECOR               of State                National
      States (1)             Items               Notices            Workforce              Workforce (2)
 California                     1                  29.7                   1                      11.0
 Texas                          2                   9.6                   2                       7.0
 Florida                        3                   6.8                   4                       5.7
 Illinois                       4                   6.2                   6                       4.3
 New Jersey                     5                   4.0                   9                       3.1
 New York                       6                   3.4                   3                       6.6
 Arizona                        7                   3.3                   21                      1.8
 North Carolina                 8                   3.2                   10                      3.0
 Washington                     9                   3.2                   15                      2.2
 Georgia                        10                  3.0                   11                      3.0
 Totals                                           72.4%                                         47.7%
Notes: (1) Our analysis does not include DECOR letters sent to Guam, Puerto Rico, American Samoa,
       Virgin Islands, Marshall Islands, and overseas addresses related to the Armed Forces. A total of
       4,397 letters related to these locations.
       (2) State workforce statistics were taken from State Statistics, Office of Policy, SSA, December
       2003, http://mwww.ba.ssa.gov/policy/docs/quickfacts/state_stats/.

We also noticed differences in the State rankings in the DECOR employee file
compared to the national workforce. These differences could be attributed to a number
of factors, including the type of industries predominant in each State as well the level of
unauthorized work and SSN misuse.10 As we have noted in our earlier review of this
area, the three industries contributing the highest number of items to the ESF include
agriculture, restaurants and services.11 SSA has previously stated that many
suspended items involve the agricultural industry, which has transient employees who




10
   For example, the State of Arizona’s ranking in the DECOR employee notices was much higher than its
ranking by State workforce. According to a March 2005 report from the Pew Hispanic Center, Estimates
of the Size and Characteristics of the Undocumented Population, Arizona is now among the States with
the largest number of undocumented migrants (approximately 500,000 out of a 10 million undocumented
migrant population for 2002 through 2004). In addition, a February 2005 Federal Trade Commission
report entitled, National and State Trends in Fraud & Identity Theft, lists the Phoenix-Mesa-Scottsdale
area in Arizona as the number one major metropolitan statistical area in the United States for identity theft
(out of 49 major metropolitan areas).
11
  SSA OIG, Employers with the Most Suspended Wage Items in the 5-Year Period 1997 through 2001
(A-03-03-13048), October 2004.



Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                             4
may not have work-authorization from the Department of Homeland Security.12 Other
high turnover industries, such as fast food, restaurants and other service industries,
have similar profiles. Frequent job and residential changes are not uncommon with
members of these workforces. These actions complicate name/SSN correction efforts
when recontacts are necessary.

EMPLOYER SERVICE LIAISON OFFICER’S COVERAGE

Some of the other trends we noticed in the DECOR employee file, such as the
distribution of an employer’s workers across multiple States, should be of interest to
SSA in terms of understanding the source of wage items going into the ESF. SSA
provides assistance to employers through ESLOs located in 10 regions throughout the
United States. The ESLOs (1) answer employers’ questions on wage reporting
submissions; (2) encourage employers to use SSA’s various programs, such as the
Employee Verification Service; (3) conduct wage-reporting seminars, in partnership with
the IRS; and (4) contact employers with significant suspended wage items in their
regions.

Since 1996, SSA's Office of Public Service and Operations Support has developed a
national listing of employers, who submit 100 or more suspended wage items. The
listing uses the employer’s address related to the EIN to determine the relevant region.
These lists are sent to regional ESLOs for follow-up contacts with the employers. SSA
does not direct the ESLOs to contact specific employers or follow up with the ESLOs
regarding what contacts were made and the results of the contacts.13

We reviewed the DECOR employer letters sent to five Texas-based employers
highlighted in an earlier audit for having a large number of suspended wages items.14
We determined that three of the five employers had more than half of their employee
problems fall outside Region VI,15 thereby falling under the jurisdiction of another ESLO
(see Table 4). SSA sent 2,082 DECOR letters to employees of one these companies,
of which 1,959 (or 90.1 percent) were sent to employees who resided outside of Region
VI. Again, this distribution of an employer’s workforce problems may call for greater
coordination between the ESLO in Region VI and other relevant ESLOs.




12
 SSA OIG, Status of the Social Security Administration’s Earnings Suspense File (A-03-03-23038),
November 2002.
13
   In our discussions with SSA staff we learned that some ESLO regions are still sending out large
volumes of correspondence to employers asking them to correct their wage reports. We were also told
that a few years ago the ESLOs had a concerted effort to contact the employers with more than 100 items
in suspense but the response rate from the employers was very low.
14
  SSA OIG, Employers with the Most Suspended Wage Items in the 5-Year Period 1997 through 2001
(A-03-03-13048), October 2004.
15
     SSA’s Region VI includes Arkansas, Louisiana, Oklahoma, New Mexico and Texas.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                       5
                         Table 4: Review of Five Employers in Texas1
   (Comparison of Payroll Address and Tax Year 2002 DECOR Employee File Address)
                                      Total Items in                                    Percent in
                                         DECOR          Total Items   Total Items in      Other
  Employer           Industry         Employee File2   in Region VI   Other Regions      Regions
        1           Services                 27,225          5,785             21,440          78.8
        2           Services                 13,327          5,458              7,869          59.1
        3           Services                  3,646          3,646                  0             0
        4          Restaurant                 3,171          2,876                295           9.3
        5           Services                  2,082            206              1,876          90.1
Note:   (1) These Texas-based employers were among the Top 100 employers in the United States
        during TYs 1997-2001. See SSA OIG, Employers with the Most Suspended Wage Items in the
         5-Year Period 1997 through 2001 (A-03-03-13048), October 2004.
        (2) Our comparison is based on the suspended wage items in the DECOR employee file, where
        employee addresses were available. Each employer above had at least 83 percent of their
        overall suspended wage items in the employee file.

The above comparison indicates that an ESLO with a full understanding of the wage
item distribution throughout the country could be in a better position to assist an
employer and pinpoint potential weaknesses in its payroll process. For instance,
employer #5 in Table 4 above with 90.1 percent of the letters mailed to employees who
reside outside Region VI may want to know which States in particular have employees
with mismatched names and SSNs. If the ESLO had the same information we used as
part of this audit, he or she could share with this employer the fact that most of the
problems relate to California-based employees (see Figure 1). We spoke to the Dallas
Region ESLO about our findings and she stated that this employee information could
assist her in her discussions with employers and/or other ESLOs around the country.

                         Figure 1: Distribution of Employee Addresses
                       Related to Texas-Based Employer #5 (from Table 4)
                                     Other
                                     22%




                         Nevada
                           3%
                       Oregon
                         5%                                       California
                                                                    58%
                          Illinois
                             6%
                                Texas
                                 6%


            Note: The Other category includes 26 States with 72 or fewer items per State.

By using the employee address information, SSA can learn more about the suspended
wage items than simply the employer’s payroll address and determine those regions
experiencing the highest volume of wage reporting problems. As a result, we believe
that this DECOR information can assist ESLOs in targeting areas of the country in need


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                       6
of additional education or special programs/pilots. For example, SSA may want to
schedule seminars on the Social Security Number Verification System (SSNVS)16 in
those areas of the country where employee mismatches are most frequent.

OTHER TRENDS AMONG THE SUSPENDED WAGE ITEMS

We also reviewed the DECOR employee file for potential SSN misuse trends across the
Nation. We reviewed both multiple uses of the same SSN by different individuals and
duplicate addresses. These trends should be of interest to SSA in its efforts to ensure
employees receive notice of wage reporting problems and protect the integrity of the
SSN.

Frequently Misused Social Security Numbers

In our analysis of the top 100 SSNs appearing most frequently within the DECOR
employee file for the entire Nation we determined that 74 of these 100 SSNs were valid
SSNs issued by SSA and used during TY 2002 by various individuals throughout the
country to report over 21,000 wage items.17 Of these valid SSNs, 11 numbers were
used more than 400 times.18

We profiled 1 of these 11 valid SSNs that appeared in the DECOR employee file and
determined that there were 742 uses of this particular SSN reported by 716 employers
for individuals residing in 42 different States.19 We reviewed SSA’s systems and
determined that the owner of this SSN is a child who was born in Mexico in September
1991. Of the 742 wage items reported under this SSN, the State of California
accounted for 450 wage items, or 61 percent.20 A further review of the ESF for TYs
1998 through 2001 showed that the child’s SSN was used over 3,900 times.

We reviewed the child’s earnings record to determine how many of the reported wage
items may have been posted to his record in the MEF. We determined that for
TYs 1998 through 2003 (when the child was 7 through 12 years of age), there were
15 wage postings related to employers in the restaurant and manufacturing industries,
with approximately $126,247 of total earnings posted to the child’s record (see Table 5).


16
 SSNVS is an on-line service that enables employers and submitters to verify employee names and
SSNs with information in SSA’s records for the W-2 reporting purposes.
17
     The remaining 26 SSNs were invalid numbers such as 999-99-9999.
18
  A review of the 11 numberholders’ information indicates that 5 of the 11 were born outside of the United
States, 5 were born in California, and 1 numberholder was born in Maryland. Furthermore, the ages of
these individuals in TY 2002 ranged from 1 to 65 years of age.
19
  These numbers only relate to the DECOR employee file where we can obtain an employee address.
We found that this SSN had been used an additional 177 times in the DECOR employer file related to
168 employers.
20
     Within the State of California, individuals living in the city of Los Angeles used this SSN 159 times.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                                7
A review of the W-2s used to report these TY 1998 through 2003 posted wages indicate
the earners lived in at least five different addresses within California during this period.21

               Table 5: Questionable Postings to Child’s Earnings Record
                               Age at Time of        Number of Wage
         Tax Year                 Posting               Postings           Total Annual Wages Posted
           1998                       7                        3                       $30,331
           1999                       8                        3                       $25,728
           2000                       9                        3                       $24,677
           2001                       10                       2                       $31,140
           2002                       11                       3                       $10,438
           2003                       12                       1                        $3,933
          Totals                                              15                      $126,247

The above case, as well as the other SSNs used multiple times, represents ongoing
SSN misuse within the economy that not only leads to an increase in the size of the
ESF, but can also lead to erroneous postings within SSA’s records and deterioration in
the quality of information in SSA’s MEF. In this case, the child’s earnings record
appears to have postings that will need to be corrected.22 We referred the above case
to SSA staff for additional review to determine if some of the wages need to be removed
and placed into the ESF.

Frequent Addresses

We reviewed trends related to the most frequently used addresses within the
TY 2002 DECOR employee file and determined that 6 of the top 10 most frequently
used addresses were located in the State of Florida (see Table 6). In addition, all six of
these Florida addresses related primarily to agricultural employers. The remaining four
addresses represented the services industry. Of the 15,133 suspended wage items
listed below, the State of Florida accounted for 11,122 wage items (or 73.5 percent),
with corresponding wages totaling about $19.2 million. The address receiving the
highest volume of DECOR letters (Address #1 in Table 6) was a “general delivery”23
address located in a Florida city known for its farmlands and high population of
farmworkers.




21
  In addition, some postings were under the same last name as the child, though it is possible the name
relates to a family member.
22
  During the Annual Wage Reporting process, SSA checks the Numident for the reported SSN for the
date of birth. If the date of birth indicates the numberholder is a child age 6 or younger, the earnings will
be identified as a Young Children’s Earnings Record item and placed into suspense.
23
  A “General Delivery” address is used when an individual wants his/her mail to be held at a Main Post
Office for up to 30 days. The United States Postal Service’s website notes that “This is also a great
option if you don't have a permanent address.”


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                                  8
          Table 6: Frequency of Addresses in TY 2002 DECOR Employee File
                                           Wage
                                         Items in                       Number
             Location of                 ESF (Per       ESF               of            Type of
 Address      Address       Industry     Address)      Wages           Employers       Location
    1          Florida     Agriculture       3,748     $2.9 million           33   General Delivery
    2          Florida     Agriculture       2,521     $5.9 million           11   Post Office Box
    3          Florida     Agriculture       2,261     $3.3 million          107   Post Office Box
    4          Florida     Agriculture         920     $2.7 million            8   Post Office Box
    5          Florida     Agriculture         851     $2.4 million            4       Employer
                                                                                       Address
    6          Florida     Agriculture         821      $1.9 million           7    Street Address
    7         California    Services         1,353      $6.8 million           8       Employer
                                                                                       Address
    8         Georgia       Services          933       $1.8 million          16    Street Address
    9        Tennessee      Services          914       $4.7 million         254       Employer
                                                                                       Address
    10         Kansas       Services          811       $4.4 million         208      Apartment
                                                                                        Building
  Total                                    15,133    $36.8 million          656

These frequently used addresses indicate that employees may not learn about their
suspended earnings since the DECOR letters are being sent to (1) incomplete
addresses (i.e. an address missing an apartment unit number), (2) employer addresses,
and/or (3) general addresses. For example, it is possible that some transient workers
are using a “general delivery” address while working for a short time in a particular
region of the country.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                9
                                                  Conclusions and
                                                 Recommendations
The DECOR employee file provides a useful profile of the employers submitting wage
reports with name/SSN mismatches. By using the address information, the Agency’s
ESLOs can learn more about the specific problems of employers within their jurisdiction.
Furthermore, by knowing specifically where DECOR letters are mailed, the Agency can
better target its employer outreach efforts. Finally, potential SSN misuse and other
trends can be proactively monitored by the Agency as it attempts to protect the integrity
of the SSN.

To improve the focus of the Agency’s employer-assistance activities and protect the
integrity of the SSN and associated earnings postings, we recommend SSA:

   1. Consider using addresses in the DECOR employee file to enhance coordination
      among ESLOs when the employer wage reporting problems relate to multiple
      regions around the country.

   2. Consider using addresses in the DECOR employee file to identify relevant trends
      among employees with suspended wages and focus ESLO efforts.

   3. Review and correct the earnings record of the child noted in this report, as well
      as the earnings records related to the remaining 10 valid SSNs misused more
      than 400 times.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix G.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)            10
                                           Appendices




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                                                                         Appendix A

Acronyms
 CY               Calendar Year
 DECOR            Decentralized Correspondence
 EDCOR            Educational Correspondence
 EIN              Employer Identification Number
 ESF              Earnings Suspense File
 ESLO             Employer Service Liaison Officer
 IRS              Internal Revenue Service
 MEF              Master Earnings File
 OIG              Office of the Inspector General
 SSA              Social Security Administration
 SSN              Social Security Number
 SSNVS            Social Security Number Verification System
 TY               Tax Year
 U.S.C.           United States Code
 WRPS             Wage Reporting Problem Service
 Forms
 Form W-2         Wage and Tax Statement




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                                                                                                                                                  Appendix B

Decentralized Correspondence Flowchart
                                             National Computer
                        Suspended            Center (NCC) creates
                          Items              suspended Wage Database
                                                                                                                        New Address -
                                                                                                                          Remailed
                                  Transmitted to Contractor



                                                                                        Recipient                        Undeliverable
                        Contractor                          DECOR                        Reply?                           (Destroyed)


                       DECOR notices printed
                       and mailed to employees/                                 Notices returned to SSA’s
                                                                                                                        Notices with
                       employers                                                Wilkes-Barre Data Operations
                                                                                Center and Sorted                         Replies



                        Condition
                        of Reply?                                                                                                               Remains
                                                  Data Entry Operator          Scanned/                                                       in Earnings
                                                  scans/inputs information                                                                     Suspense
                                                                             Input Replies                                     No
                      Questionable &                                                                                                              File
                      damaged
                      replies sent                                                                          Good
                      for resolution                                                                        Name/
                                                                                                            SSN?               Yes            Posted to
                                                                                                                                               Master
                         Earnings                                                                                                             Earnings
                        Technician                                                         Scanned/input replies sent to NCC and run
                                                                                                                                                File
                                                                                           through electronic edits to determine if
                                                                                           reinstatement of wages possible. Earning
                                                                                           technician can also manually reinstate earnings.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                                                                                    Appendix C

Scope and Methodology
To meet our objective, we performed the following steps:

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    reports related to the Earnings Suspense File (ESF) and inaccurate wage reporting.

•   Reviewed applicable Federal laws and regulations, as well as SSA policies and
    procedures for maintaining individual earnings records and contacting employers
    with suspended wages.

•   Visited the Wilkes-Barre Data Operations Center to perform a walk-through of the
    Decentralized Correspondence (DECOR) process and review available workload
    data to determine the overall effectiveness of the DECOR process. We also
    interviewed SSA staff during the walk-through process to gain a further
    understanding of the DECOR process.

•   Obtained a copy of the DECOR mailer file from SSA related to wage reports
    submitted during the Tax Year (TY) 2002 reporting period.1 This file contained
    9,529,889 wage items, with a corresponding value of $60.4 billion dollars.2

•   Analyzed the DECOR file to understand the trends among letters going to
    employees and employers. For example, we reviewed the employee file to (1) rank
    the States in terms of the volume of items in the file, (2) identify duplicate addresses
    and multiple uses of the same SSNs, and (3) determine where employees for
    specific employers actually resided.

•   We obtained State workforce data from SSA’s website, compared this workforce
    data with other sources, and discussed the reliability of these numbers with SSA
    staff.

•   Obtained copies of Wage and Tax Statements (Form W-2) from SSA’s Office of
    Central Operations to determine employee addresses for wage items that were not
    part of our TY 2002 DECOR employee file.


1
 Although the majority of the DECOR file related to TY 2002 wages, some wages related to earlier tax
years were also reported to SSA during the same period and placed in this file. However, for the
purposes of this report, we are referring to the DECOR file as a TY 2002 file.
2
  Earnings items identified as self-employment income for TY 2002 were not included in this population
since self-employment data were contained in a separate file.



Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                       C-1
We found that DECOR data was sufficiently reliable to meet the objectives of our
review. Our work was conducted at SSA's Data Operations Center in Wilkes-Barre,
Pennsylvania and at SSA Headquarters in Baltimore, Maryland. The fieldwork was
conducted between July 2004 and April 2005. The SSA entity responsible for the
maintenance of the ESF is the Office of Central Operations within the Office of the
Deputy Commissioner of Operations. Our review was conducted in accordance with
generally accepted government auditing standards.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)        C-2
                                                                         Appendix D

Ranking of States by Suspended Wage Items
and State Workforce
                      Table D-1: Comparison of States Ranking
                 of Suspended Wages Items and National Workforce
                (Based on a Review of the Tax Year 2002 DECOR Employee File)
                                                            Ranking in
       States              Ranking in       Percent of       Terms of       Percent of the
    and District of         Terms of         DECOR             State          National
     Columbia(1)           Wage Items        Notices        Workforce (2)    Workforce
 CALIFORNIA                    1               29.66             1               11.01
 TEXAS                         2               9.64              2               6.97
 FLORIDA                       3               6.80              4               5.68
 ILLINOIS                      4               6.18              6               4.33
 NEW JERSEY                    5               3.99              9               3.14
 NEW YORK                      6               3.40              3               6.55
 ARIZONA                       7               3.35              21              1.77
 NORTH CAROLINA                8               3.24              10              2.96
 WASHINGTON                    9               3.19              15              2.17
 GEORGIA                       10              3.00              11              2.95
 COLORADO                      11              2.45              22              1.59
 OREGON                        12              1.92              28              1.25
 MASSACHUSETTS                 13              1.85              13              2.27
 VIRGINIA                      14              1.73              12              2.73
 NEVADA                        15              1.40              35              0.73
 INDIANA                       16              1.25              14              2.30
 TENNESSEE                     17              1.21              17              2.07
 MICHIGAN                      18              1.19              8               3.65
 MINNESOTA                     19              1.13              20              1.99
 MARYLAND                      20              1.04              19              2.05
 UTAH                          21              1.00              34              0.80
 SOUTH CAROLINA                22              0.99              24              1.43
 WISCONSIN                     23              0.94              16              2.12
 PENNSYLVANIA                  24              0.90              5               4.44
 OHIO                          25              0.87              7               3.95
 CONNECTICUT                   26              0.83              27              1.29
 OKLAHOMA                      27              0.82              29              1.20
 KANSAS                        28              0.72              31              1.03
 ALABAMA                       29              0.66              23              1.49
 MISSOURI                      30              0.57              18              2.04
 KENTUCKY                      31              0.51              25              1.41


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)           D-1
                                                                   Ranking in
                              Ranking in          Percent of        Terms of         Percent of the
                               Terms of            DECOR              State            National
       States (1)             Wage Items           Notices         Workforce (2)      Workforce
 NEW MEXICO                        32                0.47                37                0.60
 IDAHO                             33                0.45                41                0.47
 ARKANSAS                          34                0.36                32                0.92
 RHODE ISLAND                      35                0.34                43                0.40
 MISSISSIPPI                       36                0.30                33                0.92
 IOWA                              37                0.28                30                1.12
 NEBRASKA                          38                0.27                36                0.67
 LOUISIANA                         39                0.27                26                1.40
 DELAWARE                          40                0.18                45                0.32
 DISTRICT OF
 COLUMBIA                          41               0.16                 49               0.24
 NEW HAMPSHIRE                     42               0.14                 39               0.51
 WYOMING                           43               0.07                 51               0.20
 WEST VIRGINIA                     44               0.05                 38               0.58
 HAWAII                            45               0.05                 42               0.45
 MAINE                             46               0.04                 40               0.48
 ALASKA                            47               0.04                 50               0.24
 MONTANA                           48               0.04                 44               0.34
 SOUTH DAKOTA                      49               0.03                 46               0.30
 VERMONT                           50               0.02                 47               0.25
 NORTH DAKOTA                      51               0.02                 48               0.24
 Totals(3)                                         100.0%                                100.0%
Notes: (1) Our analysis does not include DECOR letters sent to Guam, Puerto Rico, American Samoa,
       Virgin Islands, Marshall Islands, and overseas addresses related to the Armed Forces. A total of
       4,397 letters related to these locations.
       (2) State workforce statistics were taken from State Statistics, Office of Policy, SSA,
       December 2003, http://mwww.ba.ssa.gov/policy/docs/quickfacts/state_stats/.
       (3) Percentages may not add to 100 percent due to rounding.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                      D-2
                                                                              Appendix E

Prior OIG Report Ranking of States by Total
Suspended Wage Items
In prior Office of the Inspector General (OIG) reports1 we identified the 100 employers
responsible for sending the most wage items to the Earnings Suspense File (ESF)
during specific Tax Years (TY). We also identified the States represented by these
employers, noting that this State address may relate more to payroll issues than the
physical location where an employer does most of its business (see Table E-1). For
example, in our October 2004 audit covering TYs 1997 to 2001, we stated that 54 of the
100 employers had registered addresses in 3 States – California, Texas, and
Illinois – representing almost 1.5 million wage items and over $4.8 billion in wages
during TYs 1997 to 2001. California, with 25 employers, had the highest number of Top
100 employers.

            Table E-1: Ranking of States in Terms of Top 100 Employers
                         and Total Suspended Wage Items
                                                             Total
         State            Employers       Ranking          Suspended          Total Suspended
                           Per State      By Items         Wage Items              Wages
    CALIFORNIA                25              1                 682,506           $1,992,526,035
    TEXAS                     15              2                 401,167           $1,693,153,169
    ILLINOIS                  14              3                 376,731           $1,177,333,106
    FLORIDA                    4              4                 165,594             $420,648,214
    NEW YORK                   2              5                 102,601             $536,922,065
    KENTUCKY                   3              6                 100,452             $360,311,159
    OHIO                       4              7                   90,780            $323,966,821
    GEORGIA                    3              8                   84,025            $352,544,591
    MINNESOTA                  3              9                   83,835            $362,464,910
    MICHIGAN                   2             10                   81,439            $286,958,774
    NEW JERSEY                 3             11                   77,993            $169,914,341
    SOUTH CAROLINA             2             12                   68,731            $285,456,146
    OKLAHOMA                   1             13                   43,375            $117,983,189
    TENNESSEE                  2             14                   41,282            $176,646,164
    NEW MEXICO                 1             15                   36,455            $147,551,907




1
  SSA OIG, Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended
Wage Items (A-03-98-31009), September 1999; Follow-Up Review of Employers with the Most
Suspended Wage Items (A-03-03-13026), October 2003; and Employers with the Most Suspended Wage
Items in the 5-Year Period 1997 through 2001(A-03-03-13048), October 2004.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                  E-1
                                                         Total
        State           Employers       Ranking        Suspended         Total Suspended
                         Per State      By Items       Wage Items             Wages
 KANSAS                      2             16                 35,130           $161,259,665
 WISCONSIN                   2             17                 34,575           $118,018,390
 WASHINGTON                  2             18                 31,651            $92,689,767
 ARIZONA                     2             19                 29,867            $47,460,216
 LOUISIANA                   1             20                 25,175            $92,689,698
 UTAH                        1             21                 24,827            $67,498,582
 ARKANSAS                    1             22                 24,780            $92,649,911
 NEBRASKA                    1             23                 18,852           $197,524,222
 IOWA                        1             24                 18,311           $112,317,486
 OREGON                      1             25                 18,228            $68,088,754
 COLORADO                    1             26                 15,162            $65,223,596
 NORTH CAROLNA               1             27                 14,838            $51,128,279
 TOTALS                    100                            2,728,362          $9,570,929,156




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)          E-2
                                                                                 Appendix F

Additional Analysis on the Decentralized
Correspondence Employer File
We performed further analysis of the Decentralized Correspondence (DECOR)
employer file to identify any problematic trends among the employers. In particular, we
wanted to determine the volume of DECOR letters going to individual employers.

VOLUME OF NOTICES MAILED TO INDIVIDUAL EMPLOYERS
We reviewed 5,164 employers listed in the DECOR employer file that had 200 or more
items combined in both the Employer and Employee DECOR files. Our review indicates
that some employers have a significant volume of wage items with an
incomplete/incorrect address. As a result, the Social Security Administration (SSA) has
mailed individual employers thousands of pieces of mail. For example, SSA mailed
95 employers more than 1,000 letters each (see Table F-1). One employer, a staffing
company with a payroll address in the State of New York, received 13,954 letters from
SSA.1
             Table F-1: Volume of DECOR Letters Mailed to Employers
                    (Among Employers with 200 or More Items in Suspense and
                          at Least 1 Item in the DECOR Employer File)
                                                     Total Number of
     Number of DECOR            Number of            DECOR Letters
    Letters Per Employer        Employers                 Mailed               Associated Wages
    Greater than 1,001                      95                  184,876                  $770 million
     501 up to 1,000                       204                  138,357                   510 million
      101 up to 500                      1,411                  300,664                 1,150 million
         1 to 100                        3,454                  153,322                   797 million
          Total                          5,164                  777,219               $3,227 million

While the percent of employers receiving a large volume of letters is small, these
employers represent a large number of the letters being mailed. Furthermore, these
incorrect addresses also represent a missed opportunity to contact wage earners.




1
 We contacted the Employer Service Liaison Officer for Region II (New York) and determined that this
employer is currently participating in the Social Security Number Verification System (SSNVS) program.
SSNVS is an on-line service that enables employers and submitters to verify employee names and SSNs
with information in SSA’s records for the W-2 reporting purposes. SSNVS was first piloted in March 2003
and was made available to the entire nation in June 2005.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                      F-1
DOUBLE NOTIFICATION OF SUSPENDED WAGE ITEMS
In addition to the DECOR letters, SSA also sends educational correspondence
(EDCOR) to employers who submit W-2s containing name and/or Social Security
number (SSN) information that does not agree with SSA's records. EDCOR notices list
up to 500 SSNs but do not provide names. SSA requests that employers file corrected
W-2(s) to correct the error(s). As a result, employers may receive both DECOR and
EDCOR letters from SSA. Criteria for sending these notices are shown in Table F-2.

                        Table F-2: SSA’s Criteria for Sending EDCOR Notices


       2003           Notices were sent to employers who submitted a wage report
      and later       containing more than 10 W-2s that SSA could not process, and the
       years          mismatched forms represented more than .5 percent of the total
    (Tax Year 2002
       and later)     W-2s in the report.


                      Notices were sent to employers who submitted a wage report where
       2002           the name and/or SSN on even one W-2 did not agree with SSA’s
                      records. (The decision to send a letter to every employer with even
    (Tax Year 2001)
                      one "no match" was made in May 2000.)


       2001           Notices were sent to employers who submitted a wage report
     and prior        containing more than 10 W-2s that SSA could not process, and the
       years          mismatched forms represented more than 10 percent of the total
    (Tax Year 2000
       and prior)     W-2s in the report.


We identified the 10 employers who received the highest volume of notices related to
the entire TY 2002 DECOR file and found that all 10 would have also received an
EDCOR notice from SSA. As a result, the staffing company we mentioned earlier would
receive 13,955 letters from SSA – 13,954 DECOR notices and 1 EDCOR notice.2 Our
July 2002 audit of the DECOR process recommended that SSA review methods for
eliminating this duplication.3 We made this recommendation at a time when SSA was
sending EDCOR notices to every employer, regardless of the number of wage items in
suspense. SSA has since restricted its EDCOR notices to a specific threshold (as
shown in Table F-2). Nonetheless, our current review still indicates that an opportunity
may exist to reduce some of the duplication.


2
 The EDCOR notice would only disclose 500 specific SSNs with no additional identifying information.
However, SSA does have the ability to provide all of the data related to the suspended wages if the
employer contacts the local Employer Service Liaison Officer.
3
 SSA OIG, Effectiveness of the Social Security Administration’s Decentralized Correspondence Process
(A-03-01-11034), July 2002.


Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                        F-2
                                                                         Appendix G

Agency Comments




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                                        SOCIAL SECURITY
MEMORANDUM


Date:      September 23, 2005                                                  Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Usefulness of Decentralized
           Correspondence in Focusing Employer-Assistance Activities" Revised Agency Response
           (A-03-05-25007)--INFORMATION


           We appreciate OIG’s concern related to our previous comments to the subject report. We have
           reevaluated our response and have attached our revised comments on the draft report’s
           recommendations. Please disregard our previous response.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)           G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “USEFULNESS OF DECENTRALIZED CORRESPONDENCE (DECOR) IN
FOCUSING EMPLOYER-ASSISTANCE ACTIVITIES” (A-03-05-25007)

Thank you for the opportunity to review and provide comments on this draft report. The Social
Security Administration (SSA) shares OIG’s concern about wage reports with name/Social
Security number (SSN) mismatches. The SSA Employer Services Liaison Officers (ESLO)
perform an important service educating the employer community to improve the wage reporting
process.

While SSA has the ESLOs contact employers who have 100 items or more in suspense each tax
year, SSA does not have any enforcement or sanction authority to apply against those employers.
This authority resides with the Internal Revenue Service (IRS). We defer to the IRS with regard
to the effectiveness of employer sanctions.

Additionally, concerning the finding of incomplete or outdated addresses for employees, the
report should note that the Agency only has the ability to send DECOR notices to the address
that is provided by the employer via the wage and tax statement (Form W-2).

Recommendation 1

Consider using addresses in the DECOR employee file to enhance coordination among ESLOs
when the employer wage reporting problems relate to multiple regions around the country.

Comment

We agree to consider using addresses in the DECOR employee file as a means to enhance
coordination among ESLOs when employer wage reporting problems relate to multiple regions
around the country. While the DECOR addresses point to common geographic areas that are a
work source for those mismatched individuals, the wage reporting problem, and the employer's
responsibility set by IRS for accurate wage reporting, rests at the location that administers
employee intake procedures and payroll, regardless of where the employee resides. Coordination
among ESLOs has been in place to provide support in determining the wage reporting
administrative location of an employer.

To assist the ESLOs in coordinating employer wage reporting problems, SSA implemented the
Wage Reporting Problem Service (WRPS) nationally in 2003. The WRPS coordinates the
efforts of ESLOs in reporting and resolving wage reporting problems throughout the country. If
an employer in a particular State has a wage reporting problem for a given year, that information
is captured on the WRPS and is available for ESLOs in all SSA regions to view for status.
ESLOs also have the ability of transferring employer wage problems to another ESLO whose
region has jurisdiction of that employer. The WRPS accepts referrals of potential wage reporting
problems from SSA employees in the SSA field offices, teleservice centers, processing service
centers, and regional offices. WRPS sends the referral to the ESLO in the regional office that
services the postal zip code of that employer.

DECOR is a national effort rather than a geographically-based effort. Employers are advised to
contact the ESLO parallel to their payroll/tax or human resource office(s) for assistance with

Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                 G-2
DECOR and, in addition, to learn how to verify employee taxpayer identification information
(name and SSN) to prevent suspense items. The example cited on page 3 of the draft report of
the Dallas contact where the employees worked in California but the employer is headquartered
in Texas, occurs commonly in all regions. Large corporations do not confine themselves to
SSA's regional boundaries; however, the place where the employee worked is not material when
mailing DECOR notices.

Recommendation 2

Consider using addresses in the DECOR employee file to identify relevant trends among
employees with suspended wages and focus ESLO efforts.

Comment

We agree to consider using addresses in the DECOR employee file as means to identify trends
among employees and employers. Employee address information in itself will not help focus
ESLO outreach efforts since the appropriate contact is with the employer who submits the wage
reports. A more effective approach is ESLO review of the Earnings Suspense File to identify
employers who have reporting problems that need to be addressed. ESLO experience has been
that educational outreach is not a strong motivator for change with employers who have found
their current wage reporting methods meet their needs without fear of any retribution.

Additionally, the DECOR file currently does not provide the functionality required to support the
recommended analysis. Implementation of this recommendation will likely require the
development of data mining and analytical tools to provide trend analyses to the ESLOs. This
would require a new initiative to be considered in conjunction with other wage-related software
development initiatives and prioritized for submission to the Agency’s Information Advisory
Board accordingly.

In the meantime, the ESLOs will continue to work with problem reporters, promoting the use of
existing tools including Electronic Wage Reporting, AccuWage and Social Security Number
Verification Service to facilitate improved reporting.

Recommendation 3

Review and correct the earnings record of the child noted in this report, as well as the earnings
records related to the remaining 10 valid SSNs misused more than 400 times.

Comment

We agree. We are taking the necessary corrective actions on the records with problems
identified by OIG.


[SSA also provided a technical comment which has been addressed, where
appropriate, in this report.]



Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)                 G-3
                                                                         Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572


Acknowledgments
In addition to those named above:

   Frank Trzaska, Auditor-in-Charge

   Rich Devers, Information Technology Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-25007.




Usefulness of DECOR in Focusing Employer-Assistance Activities (A-03-05-25007)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
